Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

8.75% -18.75%. Based upon your credit This
APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

8.75%-18.75% Based upon your credit
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

8.75%-18.75% Based upon your credit
This APR will vary with the market based on the Prime Rate.

Penalty APR and When It Applies

23%. This APR will vary with the market based on the Prime
Rate.
This APR may be applied to your
account if you:
1. Make a payment that is late 60
days or more
2. Go over your credit line.
3. Make a payment that is
returned; or
4. Do any of the above on another
account that you have with us.

Paying Interest

Minimum Interest Charge

How Long Will the Penalty APR
Apply? If we increase your APRs
due to a late payment, we may
keep them at this higher level on
existing and new balances until you
make six consecutive on-time
payments. If we increase your
APRs for any other reason, we
may keep them at this higher level
on new balances indefinitely.

Your due date is at least 25 days after the close of each billing period
(at least 23 days for billing periods that begin in February). We will not
charge you any interest on purchases if you pay your entire balance
by the due date each month. We will begin charging interest on cash
advances and balance transfers as of the later of the transaction date
or the first day of the billing period in which the transaction posted to
your Account.
If you are charged interest, the charge will be no less than $2.00.

Fees
Annual Fee
Balance Transfer Fee
Cash Advance Fee
Late Fee
Returned Payment Fee

None
3% of the amount of each transfer.
Either $10 or 5% of the amount of each cash advance, whichever is
greater.
None the first time you pay late. After that, up to $35.
Up to $35.

How We Will Calculate Your Balance: We will use a method called “daily balance (including current transactions)”.
See the Cardmember Agreement for details.

Shopping for and using credit cards: Information concerning shopping for and using credit cards can be
found at www.consumerfinance.gov/learnmore
Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.

Thank you for choosing Dart Bank. This Agreement explains the current terms and conditions of your Account. The enclosed Pricing Schedule is part of this
Agreement. Please read this Agreement, including the Pricing Schedule, carefully. Keep them for your records. Contact us if you have any questions. We
have included a “Definitions” section for your reference on page 4.

ACCEPTANCE OF AGREEMENT
You accept this Agreement if you do not cancel your Account within 30 days after receiving a Card. You also accept this Agreement if you
or an Authorized User use the Account. You may, however, reject the “Arbitration of Disputes” section as explained in that section.

CHANGES TO YOUR AGREEMENT
The rates, fees and terms of this Agreement may change from time to time. We may add or delete any term to this Agreement. If required
by law, we will give you advance written notice of the change(s) and a right to reject the change(s). We will not charge any fee or interest
charge prohibited by law.

USING YOUR ACCOUNT
Permitted Uses
Authorized Users
Joint Accounts
Checks
Credit
Authorizations
Credit Lines

You may use your Account for Purchases, Balance Transfers and Cash Advances. You may not use it for illegal transactions.
You may request additional Cards for Authorized Users. You must notify us if you wish to cancel the authority of an
Authorized User to use your Account.
If your Account is a joint Account• each of you agrees to be liable individually and jointly for the entire amount owed on the
Account; and• any notice we mail to an address provided by either of you for the Account will serve as notice to both of you.
If we provide you with Checks, we will tell you whether we will treat the Check as a Purchase, Balance Transfer or Cash
Advance. You may not use these Checks to pay any amount you owe us.
We may not authorize a transaction for security or other reasons. We will not be liable to you if we decline to authorize a
transaction or if anyone refuses your Card, Check or Account number.
We will tell you what your Account credit line is. You
for Cash Advances. We may increase or decrease your Account
must keep your Account balance below your Account
credit line or your Cash Advance credit line without notice. We
credit line. If you do not, we may request immediate
may delay increasing your available credit by the amount of any
payment of the amount by which you exceed it. We may
payment that we receive for up to 10 business days.
establish a lower credit line

FEES (See your Pricing Schedule for Additional Fees)
Late Fee

Returned Payment
Fee

Returned Check Fee

We will not charge a Late Fee the first time you do not make the Minimum Payment Due by the Payment Due Date. After
that, if you do not pay the Minimum Payment Due by the Payment Due Date, we will charge you a Late Fee. The fee is $25 if
you were not charged a Late Fee during any of the prior six billing periods. Otherwise, the fee is $35. This fee will never
exceed the Minimum Payment Due that was due immediately prior to the date on which the fee was assessed.
If you make a payment that is not honored by your financial institution, we will charge you a Returned Payment Fee even if
the payment is honored after we re-submit it. The fee is $25 if you were not charged a Returned Payment Fee during any of
the prior six billing periods. Otherwise, the fee is $35. This fee will never exceed the Minimum Payment Due that was due
immediately prior to the date on which the payment was returned to us.
We will charge you a Returned Check Fee each time we decline to honor a Check. The fee is $25 if you were not charged a
Returned Check Fee during any of the prior six billing periods. Otherwise, the fee is $35. This fee will never exceed the
amount of the Check.

ANNUAL PERCENTAGE RATES (“APRs”) (See your Pricing Schedule for the APRs that apply to your Account)
Variable APRs

Your Pricing Schedule may include variable APRs. These
APRs are determined by adding the number of
percentage points that we specify to the Prime Rate.
Variable APRs will increase or decrease when the Prime
Rate changes. The APR change

will take effect on the first day of the billing period that begins
during the same calendar month that the Prime Rate changes.
An increase in the APR will increase your interest charges and
may increase your Minimum Payment Due.

MAKING PAYMENTS
Payment
Instructions

• You must pay us in U.S. dollars. All checks must be
drawn on funds on deposit in the U.S.
• You must pay us for all amounts due on your Account.
This includes charges made by Authorized Users.
• We may refuse to accept a payment in a foreign
currency. If we do accept it, we will charge your Account
our cost to convert it to U.S. dollars.

other restrictive endorsement without losing any of our
rights under this Agreement.
• We credit your payments in accordance with the terms
contained on your billing statement.
• If you mail your payment to an address other than the
address designated on your billing statement, there may be a
delay in processing and crediting the payment to your Account.

• We can accept late payments, partial payments or
payments marked “payment in full” or with any
Minimum Payment
Due

How We Apply
Payments

You may pay the entire New Balance shown on your
billing statement at any time. Each billing period you must
pay at least the Minimum Payment Due by the Payment
Due Date shown on your billing statement. The Minimum
Payment Due will be the greater of:• $20; or
• Any amount past due plus the greater of:
– 3% of the New Balance shown on your billing statement
(excluding any Interest Charges and Late Fee shown on
your billing statement); or – any Interest
We apply payments and credits at our discretion,
including in a manner most favorable or convenient for
us. In all cases, we will apply payments and credits as
required by applicable law.

Charges and Late Fee shown on your billing statement, plus
$15 (not to exceed 4% of the New Balance).
The Minimum Payment Due may also include amounts by
which you exceed your Account credit line. It will never exceed
the New Balance. When we calculate the Minimum Payment
Due, we may subtract from the New Balance certain fees
added to your Account during the billing period. The Minimum
Payment Due is rounded up to the nearest dollar.

We calculate interest charges each billing period by first
figuring the “daily balance” for each Transaction
Category. Transaction Categories include standard
Purchases, standard Cash Advances and different
promotional balances, such as Balance Transfers.
How We Figure the Daily Balance for Each
Transaction Category
• We start with the beginning balance for each day. The
beginning balance for the first day of the billing period is
your balance on the last day of your previous billing
period.
• We add any interest charges accrued on the previous
day’s daily balance and any new transactions and fees.
We add any new transactions or fees as of the later of the
Transaction Date or the first day of the billing period in
which the transaction or fee posted to your Account.
• We subtract any new credits and payments.
• We make other adjustments (including those
adjustments required in the “Paying Interest” section).
When Interest Charges Begin We begin to impose
interest charges on a transaction, fee or interest charge
from the day we add it to the daily balance. We continue
to impose interest charges until you pay the total amount
you owe us. You can avoid paying interest on
Purchases as described below. However, you cannot
avoid paying interest on Balance Transfers or Cash
Advances.
How to Avoid Paying Interest on Purchases (“Grace
Period”)If you paid the New Balance on your previous

How We Figure Your Total Interest Charges
• We multiply the daily balance for each Transaction Category
by its daily periodic rate. We do this for each day in the billing
period. This gives us the interest charges for each Transaction
Category. To get a daily periodic rate, we divide the APR that
applies to the Transaction Category by 365.
• We add up all the daily interest charges. The sum is the total
interest charge for the billing period.
How We Include Fees
We add Balance Transfer Fees to the applicable Balance
Transfer Transaction Category. We add Cash Advance Fees to
the applicable Cash Advance Transaction Category. We add
all other fees to the standard Purchase Transaction Category.

Each billing period, we will generally apply amounts you pay
that exceed the Minimum Payment Due to balances with
higher APRs before balances with lower APRs as of the date
we credit your payment.

INTEREST CHARGES
How We Calculate
Interest Charges—
Daily Balance
Method (including
current
transactions)

Paying Interest

billing statement by the Payment Due. Date shown on that billing
statement, we will not impose interest charges on new
Purchases, or any portion of a new Purchase, paid by the
Payment Due Date on your current billing statement. New
Purchases are Purchases that first appear on the current billing
statement.
How We Apply Payments May Impact Your Grace Period If
you do not pay your New Balance in full each month, then,
depending on the balance to which we apply your payment, you
may not get a grace period on new Purchases.

OTHER IMPORTANT INFORMATION
Default

You are in default if:
• you file bankruptcy or another insolvency proceeding is
filed by you or against you;
• we have a reasonable belief that you are unable or
unwilling to repay your obligations to us;
• you die or are legally declared incompetent or
incapacitated;

• you fail to comply with the terms of this Agreement or any
Agreement with us or an Affiliate, including failing to make a
required payment when due, exceeding your Account credit line
or using your Card or Account for an illegal transaction.
If you are in default, we may declare the entire balance of your
Account immediately due and payable without notice.

Collection Costs
Merchant
Disputes

Billing
Disputes

If we use an attorney to collect your Account, we may charge you our legal costs as permitted by law. These include
reasonable attorneys’ fees, court or other collection costs, and fees and costs of any appeal.
If you have a dispute with a merchant, you may request a credit to your Account. If we resolve the dispute in your favor, we will issue a
credit to your Account. You assign to us your claim for the credited amount against the merchant and/or any third party. At our request, you
agree to provide this assignment in writing.

If you think there is an error on your statement? You may write to us at: Dart Bank, 368 S. Park St. Mason MI 48854 or may email us at
www.dartbank.com. In your letter please provide the following information; your name and account number, the dollar amount of the
suspected error, and a description of what you believe is wrong and why you believe it is a mistake. You must contact us within 60 days
after the error appears on your statement. You must notify us of any potential errors in writing, or electronically. You may call us, but if you
do we are not required to investigate any potential errors and you may have to pay the amount in question. While we investigate While we
investigate whether or not there has been an error, we cannot try to collect the amount in question, or report you as delinquent on that
amount. The charge in question may remain on your statement, and we may continue to charge you interest on that amount. But, if we
determine that we made a mistake, you will not have to pay the amount in question or any interest or other fees related to that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance. We can apply any unpaid
amount against your credit limit.

Automatic Billing
Arrangements
Our Privacy Policy

Reporting to Credit
Reporting Agencies

Our
Communications
with You

Unauthorized Use

Cancellation of Your
Account
Purchases and
Cash Advances in
Foreign Currencies

You may set up automatic billing with a merchant. If your Account number or Card expiration date changes, you authorize us
to provide this updated information to any such merchant at our discretion. You must contact the merchant directly if you wish
to stop automatic billing.
We send you our Privacy Policy when you open your • how we safeguard its confidentiality and security;
Account
and
annually.
Contact
us
or
visit • when it may be shared with others; and
www.dartbank.com if you would like a copy. Please read • how you can limit our sharing of this information.
it carefully. It summarizes:
• the personal information we collect;
We may from time to time review your credit, employment If you believe that information we reported is inaccurate or
and income records. We may report the status and incomplete, please write us at Dart Bank 368 S. Park St. PO
payment history of your Account to credit reporting Box 40 Mason, MI 48854. Please include your name, address,
agencies and other creditors. We normally report to credit home phone number and Account number.
reporting agencies each month.
You agree that we (and our affiliates, agents, and you at. We may contact you in any way, such as calling, texting,
contractors) may monitor or record any calls between you or e-mail. We may contact you using an automated dialer or
and us. If we need to contact you to service your Account using pre-recorded messages. We may contact you on a mobile,
or to collect amounts you owe to us, you authorize us wireless, or similar device, even if you are charged for it by your
(and our affiliates, agents, and contractors) to contact you provider.
at any number (i) you have provided to us (ii) from which
you called us, or (iii) which we obtained and believe we
can reach
You must notify us immediately if:
• your Card is lost or stolen; or
• you believe someone is using your Account or a Card without your permission.
• You may cancel your Account. You will remain responsible for any amount you owe us under this Agreement.
• Any joint Accountholder may cancel a joint Account. However, both of you will remain responsible for paying all amounts
owed.
If you make a Purchase or Cash Advance in a foreign depending on the country and currency in which the transaction
currency, we will convert it to U.S. dollars using a rate we is made. We use the rate in effect on the conversion date for the
choose. This rate will either be a government-mandated transaction. This rate may be different than the rate in effect on
rate, a government-published rate or the interbank the Transaction Date for the transaction.
exchange rate,

Governing Law

This Agreement is governed by applicable federal law and by Michigan law.

Severability

If any part of this Agreement is found to be invalid, the rest of it will still remain in effect. However, if the Class Action Waiver
in the “Arbitration of Disputes” section is invalidated in any proceeding in which you and we are involved, then the “Arbitration
of Disputes” section will be void with respect to that proceeding.
We may delay enforcing or not enforce any of our rights under this Agreement without losing or waiving any of them.

Enforcing this
Agreement
Assignment of
Account

We may sell, assign or transfer your Account or any portion of it without notice to you. You may not sell, assign or transfer
your Account without first obtaining our prior written consent.

CONTACT US
Unless we tell you otherwise, you can notify us:
• by phone at 1-800-347-3085 or
• in writing to Dart Bank, 368 S. Park ST. PO Box 40
Mason MI. 48854

When writing, please include your name, address, home phone
number and Account number. You must contact us within 15
days after changing your e-mail address, mailing address or
phone number.

“Account” means your Dart Bank card account.
“Affiliate” means our parent corporations, subsidiaries
and affiliates.
“ Authorized User” means any person you authorize to
use your Account or a Card, whether you notify us or not.
“ Balance Transfer” means a balance transferred from
another creditor to your Account.
“ Card” means any one or more Dart Bankcards issued to
you or someone else with your authorization.
“Cash Advance” means the use of your Account to:
• obtain cash from participating automated teller machines,
financial institutions or other locations;
• purchase lottery tickets, money orders, casino chips,
foreign currency or similar items.

“Check” means any check we send to you to access your
Account.
“ Pricing Schedule” means the document entitled, “Pricing
Schedule”, which lists the APRs that apply to your Account and
other important information.
“ Prime Rate” means the highest rate of interest listed as the
U.S. Prime rate in the Money Rates section of The Wall Street
Journal on the last business day of the month.
“ Purchase” means the use of your Account to purchase or
lease goods or services at participating merchants.
“We,” “us” and “our” refer to Dart Bank, the issuer of your
Card.
“You,” “your” or “yours” refer to you and any other person(s)
who are also contractually liable under this Agreement.
“Transaction Date” means the date shown on your billing
statement for a transaction or fee.

DEFINITIONS

ARBITRATION
Agreement to arbitrate. In the event of a dispute
between you and us arising under or relating to
this Account, either may choose to resolve the
dispute by binding arbitration, as described
below, instead of in court. Any claim (except for a
claim challenging the validity or enforceability of
this arbitration agreement, including the Class
Action Waiver) may be resolved by binding
arbitration if either side requests it. THIS MEANS
IF
EITHER
YOU
OR
WE
CHOOSE
ARBITRATION, NEITHER PARTY SHALL HAVE
THE RIGHT TO LITIGATE SUCH CLAIM IN
COURT OR TO HAVE A JURY TRIAL. ALSO
DISCOVERY AND APPEAL RIGHTS ARE
LIMITED IN ARBITRATION.
CLASS ACTION WAIVER. ARBITRATION MUST
BE ON AN INDIVIDUAL BASIS. THIS MEANS
NEITHER YOU NOR WE MAY JOIN OR
CONSOLIDATE CLAIMS IN ARBITRATION BY
OR AGAINST OTHER CARDMEMBERS, OR
LITIGATE IN COURT OR ARBITRATE ANY
CLAIMS AS A REPRESENTATIVE OR MEMBER
OF A CLASS OR IN A PRIVATE ATTORNEY
GENERAL CAPACITY.
Only a court, and not an arbitrator, shall
determine the validity and effect of the Class
Action Waiver. Even if all parties have opted to
litigate a claim in court, you or we may elect
arbitration with respect to any claim made by a
new party or any new claims later asserted in that
lawsuit.
Your Right to Go To Small Claims Court. We will
not choose to arbitrate any claim you bring in
small claims court. However, if such a claim is
transferred, removed or appealed to a different
court, we may then choose to arbitrate.
Governing Law and Rules. This arbitration
agreement is governed by the Federal Arbitration
Act (FAA). Arbitration must proceed only with the
American Arbitration Association (AAA) or JAMS.
The rules for the arbitration will be those in this
arbitration agreement and the procedures of the
chosen arbitration organization, but the rules in
this arbitration agreement will be followed if there
is disagreement between the agreement and the
organization’s procedures. If the organization’s
procedures change after the claim is filed, the
procedures in effect when the claim was filed will

apply. For a copy of each organization’s
procedures, to file a claim or for other information,
please contact:
• AAA at 1101 Laurel Oak Rd., Voorhees, NJ
08043, www.adr.org (phone 1-877-495-4185) or
• JAMS at 620 Eighth Ave., Floor 34, New York,
• AAA at 1101 Laurel Oak Rd., Voorhees, NJ
08043, www.adr.org (phone 1-877-495-4185) or
• JAMS at 620 Eighth Ave., Floor 34, New York,
NY 10018, www.jamsadr.com (phone 1-800-3525267).
If both AAA and JAMS are completely
unavailable, and if you and we cannot agree on a
substitute, then either you or we may request that
a court appoint a substitute.

original award issues. The appealing party pays
all appellate costs unless the appellate panel
determines otherwise as part of its award.
Any arbitration award may be enforced
(such as through a judgment) in any court
with jurisdiction

Fees and Costs. If you wish to begin an
arbitration against us but you cannot afford to pay
the organization’s or arbitrator’s costs, we will
advance those costs if you ask us in writing. Any
request like this should be sent to Dart Bank 368
S. Park St. PO Box 40 Mason MI. 48854 If you
lose the arbitration, the arbitrator will decide
whether you must reimburse us for money we
advanced for you for the arbitration. If you win the
arbitration, we will not ask for reimbursement of
money we advanced.
Hearings and Decisions. Arbitration hearings
will take place in the federal judicial district where
you live. A single arbitrator will be appointed.
The arbitrator must:
• Follow all applicable substantive law, except
when contradicted by the FAA;
• Follow applicable statutes of limitations;
• Honor valid claims of privilege;
• Issue a written decision including the reasons
for the award.
The arbitrator’s decision will be final and binding
except for any review allowed by the FAA.
However, if more than $100,000 was genuinely in
dispute, then either you or we may choose to
appeal to a new panel of three arbitrators. The
appellate panel is completely free to accept or
reject the entire original award or any part of it.
The appeal must be filed with the arbitration
organization not later than 30 days after the

Survival of this Provision. This arbitration
provision shall survive:
• closing of your Account;
• voluntary payment of your Account or any
part of it;
• any legal proceedings to collect money you
owe;
• any bankruptcy by you; and
• any sale by us of your Account.
You Have the Right to Reject Arbitration
for this Account. You may reject the
arbitration agreement but only if we
receive from you a written notice of
rejection within 30 days of your receipt of
the Card after your Account is opened.
You must send the notice of rejection to:
Dart Bank 368 S. Park St Mason MI
48854.Your rejection notice must include
your name, address, phone number,
Account number and personal signature. No
one else may sign the rejection notice for
you. Your rejection notice also must not be
sent with any other correspondence.
Rejection of arbitration will not affect your
other rights or responsibilities under this
Agreement. If you reject arbitration, neither
you nor we will be subject to the arbitration
provisions for this Account.

Other Beneficiaries of this Provision. In
addition to you and us, the rights and duties
described in this arbitration agreement apply
to: our Affiliates and our and their officers,
directors and employees; any third party codefendant of a claim subject to this
arbitration
provision;
and
all
joint
Accountholders and Authorized Users of
your Account(s).

